UPCHURCH BAILEY AND UPCHURCH

ATT Y'
SIDNEY F. ANSBACHER sib AT LAW FRANK D. UPCHURCH, SR.
JOHN D. BAILEY, JR. re (1894-1986)
lorth Ponce de Leon Boulevar
ALLYSON BOYLES CURRIE St. Augustine, Florida 32084
AMANDA V. DEAN She deena HAMILTON D. UPCHURCH
. INI 4
STEPHEN A. FAUSTINI Telephone (904) 829-9066 (1925-2008)
KATHERINE GAERTNER JONES Facsimile (904) 825-4862
MICHAEL A. SIRAGUSA

Please reply to:
FRANK D. UPCHURCH III Post Office Drawer 3007 FRANK D. UPCHURCH, JR.
DONALD W. WALLIS St. Augustine, Florida 32085-3007 (1922-2012)

Honorable Scott S. Harris

Clerk, Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: — Steven T. Waltner and Sarah V. Waltner v. Commissioner of Internal Revenue
Petition for a Writ of Certiorari
CERTIFICATE OF SERVICE

Dear Mr. Harris:

I, Donald W. Wallis, counsel for Petitioners, declare that on October 8, 2019, I caused the
Respondent Commissioner of Internal Revenue to be served, pursuant to Rule 29.4(a), by
depositing into the U.S. Mail, postage pre-paid, three copies of the Petition for Writ of Certiorari
of Steven T. Waltner and Sarah V. Waltner to counsel for the Commissioner:

Noel J. Francisco

Solicitor General of the United States

U.S. Department of Justice

950 Pennsylvania Ave., N. W., Room 5614
Washington, DC 20530-0001

(202) 514-2217
SupremeCtBriefs@usdoj.gov:

In accordance with Rule 29.5 of the Rules of the United States Supreme Court, this is to
certify that all parties required to be served in this matter have been served.

 

A
Donald W. Wallis, Esq.
Counsel for Petitioners
Steven and Sarah Waltner
